1202/10/30

®mteb States Court of Appeals
Jfor tFje CtgljHj Circuit

No. 20-1248

United States of America
Plaintiff - Appellee
v.
Angel Morales
Defendant. - Appellant

Appeal from United States District Court
for the District of Minnesota

Submitted: December 18, 2020
Filed: January 29, 2021
[Unpublished]

Before GRUENDER, ERICKSON, and KOBES, Circuit Judges.

PER CURIAM.

Appelate Case: 20-1248

Psoe' 1

Da‘e Filed: 01/29/2021 Frtry ID: 4999189

izozno/zo

After a five-day trial, the district court1 declared a mistrial when the jury-was
unable to reach a verdict as to whether or not Angel Morales was guilty of conspiracy
to distribute or possession with intent to distribute 500 grams or more of
methamphetamine, in violation of 21 U.S.C, §§ 841(a)(1), 841(b)(1)(A), and 846. A
few days before the rescheduled trial date, Morales sent three emails to the court
requesting leave to seek new counsel to replace retained counsel.

With trial

scheduled to begin on Monday, September 23, 2019, the court held a pretrial
conference on Friday, September 20, 2019, as well as an ex parte hearing with
Morales regarding the basis for his dissatisfaction with retained counsel.
After a lengthy discussion with Morales, the court infonned Morales that it did
not find a basis warranting new counsel, but that Morales was free to retain new
counsel if that was his wish. The court set forth in detail the reasons it was not going
to continue the trial. United States v. Bradshaw, 955 F.3d 699, 703 (8th Cir. 2020)
(cleaned up) (noting the district court’s discretion is at its zenith when a request to
substitute counsel is made shortly before trial). Later that afternoon, Morales signed
a plea agreement pursuant to Rule 11(c)(1)(C), Federal Rules of Criminal Procedure,
in which Morales agreed to “waive all rights to a trial or appeal on the question of his
guilt.” The agreement also contained a stipulation for a sentence of 180 months’
imprisonment.
Assuming for the sake of analysis that Morales’s challenge to the voluntariness
of his plea falls outside the scope of his appeal waiver, the change of plea transcript
is replete with offers by the court to allow Morales more time to consider whether he
wanted to plead guilty. The court also explained to Morales several different times
during the plea colloquy that once the court accepted his plea. Morales could not later
change his mind and withdraw his guilty plea unless the court decided not to impose
."i --

-rv-i'.-'T ~ : a: -zr

‘The Honorable Patrick J. Schiltz, United States District Judge for the District
of Minnesota.
-2-

Appellate Case: 20-1248
:

Page: 2

Date Filed: 01/29/2021 Entry ID: 4999139

